                

                

                     U.S. ENVIRONMENTAL PROTECTION AGENCY 

                     OFFICE OF INSPECTOR GENERAL 




                     EPA Should Improve
                     Controls for Managing
                     Contractor-Held Property
                     Report No. 12-P-0388                    April 3, 2012




Scan this mobile
code to learn more
about the EPA OIG.
Report Contributors:                               Paul Curtis
                                                   Wanda Arrington
                                                   Gloria Taylor-Upshaw
                                                   Catherine Allen
                                                   Sabrina Berry
                                                   Kelly Bonnette
                                                   Robert Hairston
                                                   Sheila May
                                                   Cynthia Poteat
                                                   Alexandra Zapata-Torres


Abbreviations:

CHP           Contractor-held property
CO            Contracting officer
CP            Contract Property
CPC           Contract property coordinator
DCMA          Defense Contract Management Agency
EPA           U.S. Environmental Protection Agency
EPAAR         Environmental Protection Agency Acquisition Regulation
FAR           Federal Acquisition Regulation
FAS           Fixed Assets Subsystem
FMSD          Facilities Management Services Division
FY            Fiscal year
GAO           U.S. Government Accountability Office
GFP           Government-furnished property
IFMS          Integrated Financial Management System
MATS          Management Audit Tracking System
OA            Office of Administration
OAM           Office of Acquisition Management
OARM          Office of Administration and Resources Management
OIG           Office of Inspector General
PMO           Property management officer
S&T           Science and Technology
WCF           Working Capital Fund




  Hotline
  To report fraud, waste, or abuse, contact us through one of the following methods:

  e-mail:    OIG_Hotline@epa.gov                      write:    EPA Inspector General Hotline
  phone:     1-888-546-8740                                     1200 Pennsylvania Avenue NW
  fax:       202-566-2599                                       Mailcode 2431T
  online:    http://www.epa.gov/oig/hotline.htm                 Washington, DC 20460
                        U.S. Environmental Protection Agency 	                                                12-P-0388
                                                                                                            April 3, 2012
                        Office of Inspector General


                        At a Glance
Why We Did This Review              EPA Should Improve Controls for Managing
We performed this review to
                                    Contractor-Held Property
determine whether the U.S.
Environmental Protection             What We Found
Agency (EPA) effectively
manages contractor-held             EPA does not have effective oversight of CHP, did not accurately report CHP in
property (CHP). Specifically,       its fiscal year (FY) 2010 financial statements, and did not fully implement
we wanted to determine              corrective actions from an Office of Inspector General 2006 audit report. EPA
whether EPA (1) effectively         does not have effective oversight of CHP in terms of property administration,
oversees CHP, (2) accurately        policies and procedures over the CHP management program, and modifications
reports CHP, and                    to contracts with CHP. Further, EPA incorrectly recorded CHP and reported
(3) adequately addressed prior      property in the wrong funding appropriation. As a result, EPA overstated CHP by
recommendations on CHP.             $34.6 million in the FY 2010 financial statements. EPA did not fully implement
                                    corrective actions to address recommendations from our FY 2006 report,
Background                          EPA Needs to Strengthen Oversight of Government Furnished Property. EPA
                                    provided corrective actions, but only implemented one of two recommendations.
EPA’s Office of Administration      Without accurate CHP records and proper property administration at contractor
and Resources Management            sites, the Agency has no safeguards over property and could inaccurately report
(OARM) is responsible for           CHP in the financial statements. In FY 2011, EPA addressed the accuracy of
developing and establishing an      CHP and adjusted its FY 2011 financial statements for the overstatements.
effective and efficient property
and contract management              What We Recommend
program. In November 2009,
EPA transferred the oversight       We recommend that the Assistant Administrator for Administration and
of CHP within OARM, from            Resources Management quantify the universe of CHP and assign more resources
the Office of Acquisition           to the property administration function, designate CHP as a significant
Management to the Office of         deficiency, develop and implement policies and procedures for the property staff,
Administration, Facilities          train property staff and contracting officers on current and any new
Management Services Division.       responsibilities over contracts with government property, and revise or update the
                                    corrective action plan in the Agency’s Management Audit Tracking System for
                                    the 2006 audit report and reference any corrective actions.

                                    We recommend that the Chief Financial Officer develop and implement internal
                                    controls that require the financial staff to review the funding appropriations for
For further information, contact    contracts with government property.
our Office of Congressional and
Public Affairs at (202) 566-2391.   EPA agreed with our recommendations and proposed acceptable corrective
                                    action plans to address them.
The full report is at:
www.epa.gov/oig/reports/2012/
20120403-12-P-0388.pdf
                      UNITED STATES ENVIRONMENTAL PROTECTION AGENCY
                                   WASHINGTON, D.C. 20460


                                                                               THE INSPECTOR GENERAL



                                           April 3, 2012

MEMORANDUM

SUBJECT:	 EPA Should Improve Controls for Managing Contractor-Held Property
          Report No. 12-P-0388


FROM:          Arthur A. Elkins, Jr.

TO:            Craig E. Hooks
               Assistant Administrator for Administration and Resources Management

               Barbara J. Bennett 

               Chief Financial Officer



This is our report on the subject audit conducted by the Office of Inspector General (OIG) of the
U.S. Environmental Protection Agency. This report contains findings that describe the problems
the OIG has identified and corrective actions the OIG recommends. This report represents the
opinion of the OIG and does not necessarily represent the final EPA position on the subjects
reported. Final determination on matters in this report will be made by EPA managers in
accordance with established audit resolution procedures.

Action Required

In responding to the draft report, the Agency provided a corrective action plan for addressing the
recommendations with milestone dates. Therefore, a response to the final report is not required.
The Agency should track corrective actions not implemented in the Management Audit Tracking
System.

We have no objections to the further release of this report to the public. This report will be
available at http://www.epa.gov/oig.

If you or your staffs have any questions regarding this report, please contact Melissa Heist,
Assistant Inspector General for Audit, at (202) 566-0899 or heist.melissa@epa.gov; or Paul
Curtis, Director, Financial Statement Audits, at (202) 566-2523 or curtis.paul@epa.gov.
EPA Should Improve Controls for                                                                                                   12-P-0388
Managing Contractor-Held Property


                                  Table of Contents

Chapters
   1    Introduction ........................................................................................................          1


                Purpose .......................................................................................................        1      

                Background .................................................................................................           1      

                Noteworthy Achievements ...........................................................................                    2      

                Scope and Methodology ..............................................................................                   3      


   2    EPA Does Not Have Effective Oversight of CHP.............................................                                      6


                EPA Needs Improved Controls for Property Administration ........................                                       6

                Property Staff Need Internal Policies and Procedures to Manage CHP......                                               8

                EPA Should Modify Contracts to Include CHP ............................................                               10 

                Conclusion...................................................................................................         10

                Recommendations ......................................................................................                11

                Agency Comments and OIG Evaluation ......................................................                             11


   3    EPA Did Not Accurately Report CHP in the Financial Statements ................                                                12


                EPA Recorded Inaccurate Amounts for CHP ..............................................                                12 

                EPA Double Reported CHP in the Annual Financial Statements ................                                           13 

                EPA Did Not Properly Report CHP in the WFC Appropriation ....................                                         14 

                Conclusion...................................................................................................         16

                Recommendation ........................................................................................               16

                Agency Comments and OIG Evaluation ......................................................                             17


   4    EPA Did Not Adequately Address Prior Recommendations on CHP............                                                       18


                Federal and EPA Requirements Govern Corrective Actions .......................                                        18 

                EPA Planned Corrective Actions for Prior Recommendations ....................                                         18 

                EPA Did Not Fully Implement Corrective Actions ........................................                               19 

                Conclusion...................................................................................................         20

                Recommendation ........................................................................................               20

                Agency Comments and OIG Evaluation ......................................................                             20


   Status of Recommendations and Potential Monetary Benefits..............................                                            21




Appendices
   A    Agency Response to Draft Report....................................................................                          22 


   B    Distribution .........................................................................................................       31 

                                  Chapter 1

                                  Introduction
Purpose
            We performed this review to determine whether the U.S. Environmental
            Protection Agency (EPA) effectively manages contractor-held property (CHP).
            Specifically, we sought to determine whether EPA:

                  Has effective oversight of CHP. 

                  Accurately reports CHP. 

                  Adequately addressed prior recommendations on CHP. 


Background
            Under Federal Acquisition Regulation (FAR) Part 45, government-furnished
            property (GFP) (referred to herein as CHP) is defined as the property in the
            possession of, or directly acquired by, the government and subsequently furnished
            to a contractor for performance of a contract. CHP also includes contractor-
            acquired property, which the FAR defines as property acquired, fabricated, or
            otherwise provided by the contractor for performing a contract and to which the
            government has title.

            The EPA Office of Administration and Resources Management (OARM) is
            responsible for developing and establishing an effective and efficient Agency-
            wide property and contract management program. The two OARM offices with
            property responsibilities are the Office of Administration (OA) and the Office of
            Acquisition Management (OAM). In November 2009, EPA transferred the
            oversight of CHP from OAM to OA’s Facilities Management Services Division
            (FMSD). Currently, FMSD administers programs relating to property and supply
            management, and OAM is responsible for the policies, procedures, operations,
            and support of the Agency’s procurement and contracts management program.

            Several guidance documents govern CHP. When EPA property is in the
            possession of a contractor, property management responsibilities under EPA
            contracts are governed by Environmental Protection Agency Acquisition
            Regulation (EPAAR) Section 1552.245-70, which outlines property
            administration requirements for contractors. These requirements supplement those
            contained in the government property clause(s) and FAR Part 45. Also, EPA’s
            Contract Management Manual, Chapter 45, requires EPA to maintain effective
            control and accountability for all CHP. It specifically addresses the property
            administration function to ensure that property in contractors’ possession is
            maintained and tracked in accordance with the contract.



12-P-0388                                                                                       1
            The 4832 EPA Personal Property Policy and Procedures Manual is the primary
            authoritative reference for property management. Property staffs manage personal
            property—property that has not been provided to contractors as CHP—
            in 24 accountable areas nationwide, to include headquarters, regions, and
            laboratories. Each accountable area should have a property management officer
            (PMO), property accountable officer, and property utilization officer, who are
            responsible for ensuring that adequate and effective administrative controls are
            established for all personal property under their jurisdiction. Although not
            required, some PMOs currently track CHP as well. Chapter 5 of the manual
            outlines policies for control, accountability, and CHP general management once
            property is provided to contractors. Specifically, the manual describes CHP
            responsibilities for contracting officers (COs), contracting officer representatives,
            project officers, and contractors.

            Under FAR Part 42, Contract Administration, Subpart 42.1, EPA had an
            interagency agreement with the Defense Contract Management Agency (DCMA),
            under which DCMA would provide EPA with property administration and plant
            clearance services on EPA contracts. The agreement was effective in January
            2006, and EPA terminated the agreement in May 2009.

Noteworthy Achievements
            In fiscal year (FY) 2011, the Agency placed more emphasis on CHP during the
            Office of Management and Budget’s revised Circular A-123 internal control
            reviews. EPA retained external auditors to assist in its annual efforts to comply
            with the Office of Management and Budget’s revised Circular A-123. The
            external auditors’ control assessment report noted the following concerns that
            relate to our findings:

                  Inadequate resources for managing personal property and CHP.
                  Insufficient training and accountability for managing personal property
                   and CHP.
                  Inconsistent policies and procedures for managing personal property and
                   CHP at headquarters and regional offices.
                  Insufficient internal controls over CHP.

            In FY 2012, after the assessment and in response to our FY 2011 financial
            statement audit findings, OARM noted that it would review current policies and
            procedures, and revise them as needed to ensure that they address responsibilities
            for the removal of personal property from the Agency’s financial system when it
            is transferred to contractors. Current procedures are in place to inform COs,
            project managers, contractors, and Agency property personnel on how to handle
            property transfers to contractors. Additionally, frequent turnover of positions
            necessitates an increase in both training and cross-training of COs and Agency
            property managers. OARM also noted that it is committed to developing a
            training program for all parties associated with the contract property process


12-P-0388                                                                                       2
                   during FY 2012. As part of an ongoing review and improvement program, OARM
                   plans to provide periodic training information to COs on the importance of
                   ensuring that all contracts having contract property clauses are identified as such
                   in the Agency’s acquisition system.

Scope and Methodology
                   We conducted this audit in accordance with generally accepted government
                   auditing standards. Those standards require that we plan and perform the audit to
                   obtain sufficient, appropriate evidence to provide a reasonable basis for our
                   findings and conclusions based on our audit objectives. We believe that the
                   evidence obtained provides a reasonable basis for our findings and conclusions
                   based on our audit objectives. We conducted our audit from February 2011
                   through February 2012,1 at EPA headquarters in Washington, DC. We also visited
                   contractor sites located in Research Triangle Park, North Carolina; Fort Meade,
                   Maryland; Reston, Virginia; and Edison, New Jersey.

                   We assessed internal controls over CHP related to the Agency’s procedures,
                   including property and contract requirements. We reviewed FAR Parts 42 and 45,
                   and the U.S. Government Accountability Office’s (GAO’s) Standards for Internal
                   Control in the Federal Government. We also reviewed EPA’s Management Audit
                   Tracking System (MATS) to determine the status of corrective actions for Office
                   of Inspector General (OIG) Report No. 2006-P-00035, EPA Needs to Strengthen
                   Oversight of Government Furnished Property.

                   We were not able to obtain a complete list of all CHP from OARM. We obtained
                   a listing of FY 2010 contracts with CHP valued at over $25,000 per property item
                   that OARM used to report CHP in the FY 2010 financial statement audit. From
                   the FY 2010 list, we judgmentally selected three high dollar and two smaller
                   dollar contracts at different locations (table 1). We obtained the contractors’
                   annual property reports and physical inventories lists as of FY 2010. We tested
                   samples, performed inventories, and reviewed property controls and data in the
                   Fixed Assets Subsystem (FAS). We reviewed supporting documentation for
                   acquisition costs associated with capital property items. For all samples, we held
                   interviews with EPA personnel and contractors, performed observations, and
                   analyzed property data.




1
    We suspended the assignment in September 2011 and resumed work on the draft report in November 2011.



12-P-0388                                                                                                  3
            Table 1: OIG testing schedule for EPA’s contracts with CHP
                                                         Total number
                                                         of CHP items     Total value of
                       Contract and location               in sample     CHP in sample

             Contract A—Research Triangle Park, NC               29           $6,681,107

             Contract B1—Washington, DCa                         21              997,591
             Contract B2—Research Triangle Park, NCa             241          25,910,813
             Contract C—Fort Meade, MD                           8               457,900
             Contract D—Edison , NJ                              48            3,655,537
             Contract E—Reston, VA                               1                30,000

             Total                                               348         $37,732,948
            Source: OIG analysis.

                     a
                         Same contract in different locations.

            Prior EPA OIG Reports

            In OIG Report No. 2006-P-00035, EPA Needs to Strengthen Oversight of
            Government Furnished Property, September 19, 2006, we found that OAM did
            not have accurate and reliable records to indicate which contractors had received
            EPA-provided GFP, the dollar value of the GFP provided, or whether contractors
            had performed the required annual inventories. We also found that OAM needed
            to improve the administration of its interagency agreements with DCMA. The
            conditions we found were generally due to outdated policies and procedures that
            did not assign specific responsibility for GFP property administration.

            The EPA OIG also issued the following reports with findings related to EPA
            property:

                	 OIG Report No. 12-1-0073, Audit of EPA’s Fiscal 2011 and 2010
                   Consolidated Financial Statement, November 15, 2011—This report
                   noted that EPA double counted 97 items of capitalized property in its
                   financial system because it did not remove from its financial system
                   property that had been transferred to contractors. Also, EPA headquarters
                   could not account for 1,284 personal property items in FY 2011 as
                   required by EPA’s Personal Property and Procedures Manual.
                   Headquarters mid-level management was not knowledgeable about
                   Agency property management procedures, and EPA did not provide
                   planned property training for Agency employees during FY 2011.

                	 OIG Report No. 11-1-0015, Audit of EPA’s Fiscal 2010 and 2009
                   Consolidated Financial Statement, November 15, 2010—This report
                   noted that EPA headquarters could not account for certain personal



12-P-0388                                                                                      4
                   property items in FY 2010 as required by EPA’s Personal Property and
                   Procedures Manual. The primary cause was that headquarters mid-level
                   management was not knowledgeable about Agency property management
                   procedures.

               	 OIG Report No. 10-1-0029, Audit of EPA’s Fiscal 2009 and 2008
                  (Restated) Consolidated Financial Statement, November 16, 2009—This
                  report noted that EPA did not conduct a physical inventory of 1,804 items
                  of accountable personal property at EPA headquarters in FY 2009 as
                  required by EPA’s Personal Property and Procedures Manual. EPA did
                  not inventory all headquarters accountable property because it did not
                  develop procedures to account adequately for the replacement of
                  thousands of personal computers resulting from EPA implementing a new
                  desktop service provider.

            We found no prior GAO reports with findings or recommendations related to
            EPA’s CHP.




12-P-0388                                                                                 5
                                  Chapter 2

      EPA Does Not Have Effective Oversight of CHP
            EPA does not have effective oversight of CHP. We found that EPA needs to
            improve oversight in three areas: (1) CHP administration, (2) policies and
            procedures for the CHP management program, and (3) modifications to contracts
            with CHP. Federal regulations and EPA’s acquisition policies address some of the
            controls needed to ensure that government property in the possession of
            contractors is controlled, protected, and maintained in accordance with
            contractual requirements. GAO’s Standards for Internal Control in the Federal
            Government requires EPA to have effective policies, procedures, techniques, and
            mechanisms to address risks. However, EPA does not perform property
            administration for property items provided to contractors. Property staff have
            limited resources to govern CHP, and COs are not aware of property contract
            requirements. Property staffs have dealt with CHP in diverse ways, which EPA
            did not formalize through written policy. By not addressing these conditions, EPA
            increases the likelihood that government property may be lost or stolen while in
            the possession of contractors. In addition, EPA increases the risk of misstatements
            to the financial statements.

EPA Needs Improved Controls for Property Administration
            The contract property coordinator (CPC) did not perform property administration
            for property items reported by contractors. The CPC is responsible for property
            administration for all EPA contracts issued with government property or contracts
            that include property clauses. Our audit indicated that EPA does not know how
            much property is in the possession of contractors. We requested a complete listing
            of CHP. However, EPA property officials could only provide a list of 72 contracts
            in which contractors reported 948 capital items totaling $95 million for FY 2010.
            From our testing of the capital items, we found that the CPC has not performed
            property administration since 2008. Also, the interagency agreement with DCMA
            to help with property administration was terminated in May 2009 with no
            replacement. EPA used the incomplete FY 2010 listing to report capital CHP
            amounts on the FY 2010 financial statements.

            The CPC did not have a complete listing of all contracts with CHP and asked the
            contract office to identify the contracts with CHP. In September 2010, the
            contract office requested that COs review contracts with property clauses and
            request annual property reports from contractors. COs are required to modify
            contracts when adding, transferring, or disposing of government property, and
            submit electronic copies of all contracts and modifications that include the
            property clauses to the CPC. However, EPA COs often did not provide copies of
            contracts and modifications to the CPC.



12-P-0388                                                                                     6
            We reviewed some responses from contractors to the request for annual property
            reports and found that one contractor did not report one capital property item
            valued at $44,000. The property item was not included in the FY 2010 financial
            statements; however, it was scheduled for disposal in January 2011.

            In FY 2011, EPA worked to gather a more comprehensive and accurate list of
            contractors having contracts and Agency contract property clauses to validate the
            FY 2011 annual reporting.

            Contract Management Manual Requirements

            Currently, EPA does not perform the property administration function to ensure
            that property in contractors’ possession is being maintained and tracked in
            accordance with the contract. The Contracts Management Manual,
            Section 45.2.2, states:

                   [Property] administration ensures that all government property in
                   both the contractor’s and its subcontractor’s possession is
                   controlled, protected, maintained, used, and reported in accordance
                   with regulatory and contractual requirements.

            To help with the property administration and the universe of contracts, COs
            should notify the CPC of any changes to contracts. Section 45.2.5.1.2 states:

                   All EPA contracts issued with Government Property, or those,
                   which include the Government Property clauses and have the
                   potential to receive, purchase or acquire Government Property,
                   are automatically delegated to the EPA CPC for property
                   administration. The delegation gives the CPC authorization to
                   obtain property reports and annual physical inventory reports.

            According to the Contracts Management Manual, the CPC is to:

                   [Review] all property and [annual] physical [inventory] reports to
                   ensure that the reports represent an accurate and complete
                   accounting of contractor held government property. Information
                   contained in these reports is used to provide Financial Information
                   to the OCFO for the Agency’s financial statements.

            Contracts and Property Staff Controls Need Improvement

            A contract manager noted that many COs are not aware of the requirement to
            submit electronic copies of contracts and modifications with government property
            clauses to the CPC. Further, there is no internal control or comprehensive
            reporting mechanism in place to ensure that the CPC receives notification of new
            contracts that include CHP.



12-P-0388                                                                                       7
            The property office has limited resources, and CPC has not performed property
            administration due to workload. A senior property manager stated that a new staff
            member has been hired to perform the property clearance functions because the
            current CPC is performing the work of three staff members. He also stated that he
            wanted to resolve the CHP issues internally, and EPA is not considering a new
            interagency agreement for property administration.

Property Staff Need Internal Policies and Procedures to Manage CHP
            EPA does not have internal policies and procedures for the management and
            oversight of CHP as part of an overall property management program. EPA has
            unofficially instituted a number of practices for overseeing and tracking CHP, but
            has not formalized these practices in written policy. We found that in one
            accountable area, contractors are accounting for CHP that they do not fully control.

            Internal Policies Are Limited in Addressing CHP Requirements

            Agency policy to address how property staff should handle CHP in their
            accountable areas is limited to a section in EPA’s Personal Property Policy and
            Procedures Manual. Section 5.2.1 states:

                   When contractors are furnished with government property, it is
                   deleted from IFMS [Integrated Financial Management System] and
                   the contractor becomes responsible for the property until such time
                   as it is returned to the Government. In such cases, the Government
                   retains title to the property.

            In addition, GAO’s Standards for Internal Control in the Federal
            Government state:

                   Control activities are the policies, procedures, techniques, and
                   mechanisms that enforce management’s directives, such as the
                   process of adhering to requirements for budget development and
                   execution. They help ensure that actions are taken to address risks.
                   Control activities are an integral part of an entity’s planning,
                   implementing, reviewing, and addressing the accountability for
                   stewardship of government resources and achieving effective
                   results.

            Our review did not identify any property that EPA deleted from IFMS as noted in
            the requirement. We did identify changes to the property status in IFMS’s FAS.
            We also found decal numbers from FAS on CHP.

            EPA does not have an official policy to address CHP in FAS. There were no
            official policies or procedures to address how PMOs should handle contractors
            using CHP in shared office space, how decals should be provided to contractors



12-P-0388                                                                                     8
            for newly purchased EPA property, or what acquisition documentation should be
            maintained by EPA or the contractor for CHP.

            Property staffs should rely on the FAR and the Contracts Management Manual as
            policy for governing CHP. In addition, property staff stated that other offices have
            too much control over CHP, which impedes their efforts to manage properly. As
            of our review, EPA has not formally issued and implemented a comprehensive
            policy to address CHP oversight.

            EPA Did Not Address Diverse CHP Practices

            Because EPA has not issued clear CHP policies and procedures to property staffs
            Agency-wide, offices have dealt with CHP in diverse ways. Practices we found
            during our interviews with contractors and property staffs include:

               	 Contractors in shared spaces with EPA employees stated that they have
                  CHP in an EPA facility, and EPA employees use equipment for which
                  contractors have the responsibility to annually inventory and report to EPA.

               	 Property staff provided a contractor with a roll of EPA decals and allowed
                  the contractor to place the decals on government property. Property staff
                  also allowed the contractor to enter the information in EPA’s property
                  database system.

               	 The PMO in one accountable area includes EPA-held property and CHP in
                  EPA’s annual inventory and works directly with the project officer to
                  track CHP.

               	 Two PMOs had no knowledge or involvement with CHP in their 

                  accountable areas. 


               	 Contractors are required to report the value of government property on
                  their annual property reports; however, in several instances, neither EPA
                  nor the contractors had acquisition documentation to support the amount
                  reported by the contractor.

               	 One PMO changes the status of CHP in FAS from a “non-disposed” code
                  to a “disposition 9” code. The “disposition 9” code was established by
                  property staff, and not as official policy, to distinguish between active
                  items in IFMS and those items provided to the contractor. The code
                  indicates that EPA transferred the property to the contractor, and the item
                  becomes inactive and not counted as EPA-held property.

            These practices exhibit the need for clear policies and procedures over CHP to
            ensure that government property is safeguarded while in the possession of
            contractors.


12-P-0388                                                                                       9
EPA Should Modify Contracts to Include CHP
            EPA did not modify contracts to include CHP as required by FAR Part 45,
            Subpart 45.1, Section 45.106. COs are to initiate the transfer of government
            property using a contract modification. We found two contractors who reported
            on their annual property reports a total of 49 capital property items on two
            contracts that did not have CHP modifications in their contracts. For 48 items
            valued at over $3.6 million dollars, the contractor transferred and used the same
            property from one contract on a subsequent contract without a contract
            modification. For the additional item, the program office purchased the property
            for the contractor and did not notify the CO to modify the property item, valued at
            $34,000, to the contract.

            Federal and EPA Policies and Procedures Address CO Responsibilities

            The FAR directly addresses CO responsibilities for contracts with government
            property. Section 45.106 states:

                   Government property shall be transferred from one contract to
                   another only when firm requirements exist under the gaining
                   contract (See 45.102). Such transfers shall be documented by
                   modifications to both gaining and losing contracts. Once
                   transferred, all property shall be considered Government-furnished
                   property to the gaining contract.

            Contracts Management Manual Section 45.2.5.1.1 states, among other things, that
            it is the CO’s responsibility to “[modify] the contract when adding, transferring, or
            disposing of government property.” Additionally, the CO is to “[submit] electronic
            copies of all contracts, modifications, purchase orders, and Federal Supply
            Schedule orders that include the Government property clauses to the CPC.”

            EPA Did Not Know Contracts Needed Changes

            The CO for one of the two contracts we identified as not having CHP modifications
            had just recently acquired the contract from another CO. She was not aware that
            there was no contract modification for the 48 capital items currently used by the
            contractor. On the second contract, the CO did not know that the program office
            had purchased property for the contractor, and did not receive a request for a
            contract modification from the contractor or project officer. As a result of our
            inquiries, both COs stated that they would modify the contracts to add the CHP.

Conclusion
            By having limited controls, not performing property administration, and not
            tracking the universe of CHP, EPA increases the likelihood that government
            property can be lost or stolen while in the possession of contractors. EPA should


12-P-0388                                                                                     10
            manage CHP effectively, provide oversight, and accurately report the value of
            CHP on the financial statements. At a minimum, EPA controls should include the
            proper policies and procedures to track and document CHP that is relinquished to
            contractors. By not ensuring that CHP is accounted for accurately under the
            correct contract, EPA increases the risk of misstatements to the financial
            statements.

Recommendations
            We recommend that the Assistant Administrator for Administration and
            Resources Management:

               1.	 Quantify the universe of CHP and assign more resources to the property
                   administration function or contract the function to ensure proper oversight
                   and management of CHP.

               2.	 Designate CHP as a significant deficiency until adequate controls are in
                   place to safeguard government property.

               3.	 Develop and implement policies and procedures for the property staff that:

                       a.	 Address how EPA should maintain documentation to support
                           acquisition values reported by contractors on annual property
                           reports.
                       b.	 Require PMOs to have knowledge of CHP in their accountable
                           areas to ensure it is identified properly in FAS.
                       c.	 Define CHP responsibilities in locations where contractors and
                           EPA staff are co-located.
                       d.	 Explain the required exchange between property and contract staffs
                           to ensure EPA records property accurately in the financial
                           statements.

               4. 	 Train property staff and COs on current and any new responsibilities over
                    contracts with government property to ensure consistent application of and
                    adherence to EPA’s administration of its property management program.

Agency Comments and OIG Evaluation
               EPA agreed with our recommendations and proposed acceptable corrective
               actions to address them. Appendix A contains the full text of the Agency’s
               response.




12-P-0388                                                                                     11
                                    Chapter 3

            EPA Did Not Accurately Report CHP in the 

                     Financial Statements 

              EPA did not accurately report CHP in its FY 2010 financial statements. EPA
              incorrectly recorded CHP and reported property in the wrong appropriation.
              EPA’s acquisition guidance requires contractors to create and maintain records of
              all government property, regardless of value. The property manual states that
              CHP should be deleted from the financial system. Additionally, the financial
              policies state that the Reporting and Analysis Staff should not include the
              Working Capital Fund (WCF) appropriation code in the year-end allocation of
              CHP. By not reporting CHP accurately, EPA overstated CHP by $34.6 million in
              the FY 2010 financial statements. EPA could significantly impact future financial
              statements if the financial staff does not review contract funding sources for the
              correct allocation prior to reporting on the statements. In FY 2011, EPA addressed
              CHP financial reporting by adjusting the inaccuracies in its financial system and
              deleting property reported in the WCF appropriation code from its FY 2011
              financial statements.

EPA Recorded Inaccurate Amounts for CHP
              EPA incorrectly recorded over $2.5 million in CHP based on contractors’
              incorrect annual property reports. EPA cannot confirm that the costs reported by
              contractors are reasonably accurate because EPA has not performed property
              administration since 2008. We found the following inaccuracies in contractor
              annual property reports:

                 	 A contractor reported property items totaling $997,591without conducting
                    an inventory. The contractor had returned the property to EPA without
                    following the proper procedures, and reported property in its annual
                    property report that was in EPA’s possession.

                 	 A contractor reported a specialty vehicle with an acquisition cost of
                    $379,800, which was $23,800 more than the value of the capital property
                    as noted on the acquisition documentation.

                 	 A contractor did not submit the required annual property report, due
                    September 30, for a capital property item valued at $44,000, until
                    February 2011.

                 	 A contractor included a $1.5 million computer mainframe, which EPA had
                    disposed of on September 27, 2010, in its September 30, 2010, inventory
                    property list and annual property report.



12-P-0388                                                                                    12
            EPA’s internal acquisition guidance requires that contractors maintain auditable
            records. Specifically, EPAAR 1552.245-70, Paragraph 5c, states, “Support
            documentation used for posting entries to the property record shall provide
            complete, current and auditable data.” Paragraph 6 states, “The contractor shall
            conduct a complete physical inventory of EPA property at least once per year.”
            Paragraph 7 states, “EPA requires an annual summary report, for each contract,
            by contract number, of Government property in the contractor’s possession. The
            annual summary is due as of September 30th of each year, and upon contract
            termination or expiration.”

            EPA’s CPC is to review the annual property reports from the contractors for
            accuracy as stated in Contracts Management Manual Section 45.2.5.1.2. The
            section states, “The CPC review[s] all property and physical [inventory] reports to
            ensure that the reports represent an accurate and complete accounting of
            contractor held government property.” EPA uses the information in the annual
            property reports from contractors to report property on the financial statements.
            EPA did not ensure that the contractors maintained and tracked CHP as required
            by the contract guidance.

EPA Double Reported CHP in the Annual Financial Statements
            EPA recorded 146 CHP property items on four contracts twice in its FY 2010
            financial statements. EPA recorded the same property as CHP and as EPA-held
            property.

            EPA reports property in its annual financial statements under the “General Plant
            Property and Equipment” section. Property values are in two sections of the
            financial statements. One section, “EPA Held Equipment,” includes property in
            EPA possession, and another section, “Contractor Held Property,” is for property
            in the contractor’s possession. We reviewed FY 2010 annual property reports and
            physical inventories from contractors, and looked up the property items in the
            financial system to determine the property item’s status. The IFMS FAS showed
            that 146 CHP items were recorded as “non-disposed.” These items are considered
            active property in EPA’s possession.

            We sampled four contracts with CHP items valued at over $37 million (table 2).
            We determined based on our review that EPA duplicated the property in its
            financial system and subsequently duplicated the value in its FY 2010 financial
            statements. This duplication resulted in an overstatement of $15.2 million.




12-P-0388                                                                                     13
      Table 2: Double-reported CHP
                                  Amount                       EPA-held
                      CHP       reported as                    property       Amount
                     items       contractor                     items       reported as    Amount
        Contract   reported        held                         in FAS       EPA held     duplicated
                 A               29          $6,681,107               17     $5,644,174    $5,644,174
                     a
             B1                  21              997,591              21       997,591        997,591
                     a
             B2                  241         25,910,813               58      4,965,388     4,965,388
                 C                8              457,900              8        457,900        457,900
                 D               48           3,655,537               42      3,139,977     3,139,977
            Totals               347        $37,702,948               146   $15,205,030   $15,205,030
      Source: OIG analysis.
             a
                 Same contract for property in different locations.


                         Guidance to property staff states that CHP should be deleted from the financial
                         system. However, the guidance does not state who should delete the property
                         from the financial system. Specifically, EPA’s Personal Property Policy and
                         Procedures Manual Section 5.2.1 states:

                                When contractors are furnished with government property, it is
                                deleted from IFMS and the contractor becomes responsible for the
                                property until such time as it is returned to the government. In such
                                cases, the government retains title to the property.

                         PMOs should be notified to update IFMS when property is placed on contract to
                         ensure the accountability of property in IFMS and to keep property from
                         remaining in EPA’s financial system as EPA-held property. Additionally, EPA
                         needs a policy to identify who is responsible and how CHP should be changed in
                         the financial system when property is provided to contractors and reported in the
                         financial statements.

EPA Did Not Properly Report CHP in the WCF Appropriation
                         In the FY 2010 financial statements, EPA reported CHP in the wrong funding
                         appropriation for one contract valued at over $25 million. We found that EPA
                         reported the entire contract funding in the Science and Technology (S&T)
                         appropriation (fund code C) instead of identifying the portion of the contract—
                         153 items valued at $16.8 million—that is associated with the WCF appropriation
                         (fund code WR).

                         The WCF staff enters its property into the financial system to account for assets
                         and properly record depreciation. We found that the Office of the Chief Financial
                         Officer’s Reporting and Analysis Staff recorded the same property under the S&T
                         appropriation in its CHP allocations.



12-P-0388                                                                                                  14
            Our testing showed that 153 property items on the contract, valued at
            $16.8 million, had a WR fund code (figure 1). The other items on the contract had
            funding for Superfund (fund code T) and Environmental Programs and
            Management (fund code B). However, the Reporting and Analysis Staff did not
            review the funding source for the contract and reported the entire contract under
            fund code C in the FY 2010 financial statements. If the staff had reported the
            items accurately, as broken out in figure 1, they would have been able to remove
            the WCF portion of the contract items and value from the year-end CHP
            allocations to prevent double reporting of CHP on the financial statements.

             Figure 1: Funding on contract B2
                                     )
                         Not Fully Tested                     Fund Code 
                           $3.6 million                        Unknown
                            19 Items                          $2.8 million
                                                               35 items       Funds B, C,
                                                                                  or T
                                                                              $2.7 million
                                                                               34 items



                 Fund WR
               $16.8 million
                153 items


             Source: OIG analysis.


            EPA’s Resources Management Directive System 2540-14-P3, Exhibit 3,
            Paragraph 7c, states:

                   The WCF enters into FAS assets held by contractors and purchased
                   with WCF funds in order to financially account for its assets,
                   properly record its capital equipment, and record monthly
                   depreciation expenses.

            Paragraph 7f states:

                   WCF CP [contract property] is already in FAS and accurately
                   accounted for and depreciated. To ensure there is no double
                   counting of CP on the Agency’s financial statements, the WCF
                   appropriation code is not included in the year end allocation of CP
                   by the Reporting and Analysis Staff (RAS). It is the responsibility
                   of the contractor to report CP.

            The Reporting and Analysis Staff stated that they did not have the specific
            funding information for this specific contract. They also stated that overall


12-P-0388                                                                                    15
            funding for contracts is usually allocated based upon the obligations associated
            with the contract. Our review of the obligations for this contract noted that various
            fund appropriations were allocated for this contract, including WCF. The
            Reporting and Analysis Staff should review the funding appropriations prior to
            allocating amounts for CHP in the financial statements.

            During our FY 2011 financial statement audit, we addressed the accuracy of CHP
            in its financial reporting and the recording of the $25 million contract. EPA
            removed the contract from fund code C and its FY 2011 financial reporting.
            Additionally, EPA stated it will:

                   [Review] current policies and procedures and revise as needed to
                   ensure they address responsibilities for the removal from its
                   financial system when it is transferred to contractors. Current
                   procedures are in place to inform contracting officers, project
                   managers, contractors and agency property personnel on how to
                   handle property transfers to contractors.

            EPA also stated that Agency and contractor compliance remains a challenge, and
            it is committed to developing a training program for all parties associated with the
            contract property process during FY 2012.

Conclusion
            EPA’s FY 2010 total overstatement is $34.6 million. The overstatement includes
            $17.8 million due to recording incorrect amounts from contractor annual reports
            and recording duplicate property items. It also included $16.8 million due to not
            removing WCF funding from one contract. EPA should develop controls to
            ensure that the financial staff reviews contract funding prior to reporting CHP on
            the financial statements. EPA increases the risk that a material misstatement may
            occur and go undetected when Agency personnel and contractors do not comply
            with internal policies already in place.

            EPA management has placed more emphasis on CHP in FY 2011. EPA addressed
            the accuracy of CHP in its financial reporting and the recording of the $25 million
            contract. We believe EPA should continue its emphasis on accurately reporting
            CHP in the financial system.

Recommendation
            We recommend that the Chief Financial Officer:

               5.	 Develop and implement internal controls that require the Reporting and
                   Analysis Staff to review the funding appropriations for contracts with
                   government property prior to allocating funds for CHP in the financial
                   statements.


12-P-0388                                                                                     16
Agency Comments and OIG Evaluation
            EPA agreed with our recommendations and proposed acceptable corrective action
            plans to address them. Appendix A contains the full text of the Agency’s
            response.




12-P-0388                                                                              17
                                   Chapter 4

                EPA Did Not Adequately Address 

                Prior Recommendations on CHP 

            EPA did not fully implement corrective actions to address recommendations from
            the OIG’s FY 2006 audit report, EPA Needs to Strengthen Oversight of
            Government Furnished Property. EPA provided corrective actions, but did not
            fully implement them. Federal guidance and internal policies note that corrective
            actions are essential to improving the effectiveness and efficiency of government
            operations, and should be complete, accurate, and verifiable. If EPA does not
            implement OIG recommendations to maintain accurate CHP records and perform
            property administration functions at contractor sites, EPA is not safeguarding
            property, which may be lost or stolen while in the possession of contractors.
            Further, EPA could inaccurately report CHP in the financial statements.

Federal and EPA Requirements Govern Corrective Actions
            Federal guidance and internal policies require EPA to complete corrective actions.
            The Office of Management and Budget’s Circular A-50, Section 5, states that
            corrective action taken by management on resolved findings and
            recommendations is essential to improving the effectiveness and efficiency of
            government operations.

            EPA Order 2750, Chapter 9, Section 2 and 3a, states that the action official or the
            delegated program manager is responsible for implementing the corrective actions
            and meeting the milestone dates. Chapter 9, Section 4, further states that events
            may occur; for example, changes in organizations that can render the corrective
            action plan outdated or inappropriate. In these cases, the action official will revise
            the corrective action plan and submit it to the inspector general’s office.

EPA Planned Corrective Actions for Prior Recommendations
            In OIG Report No. 2006-P-00035, EPA Needs to Strengthen Oversight of
            Government Furnished Property, September 19, 2006, we recommended that
            EPA ensure that OARM OAM complete efforts to (1) update policies and
            procedures regarding GFP management, and (2) maintain accurate records and
            properly administer interagency agreements with DCMA.

            In response to the recommendation, EPA updated policies and procedures
            regarding CHP by revising the Contracts Management Manual in February 2009,
            and EPAAR clauses in September 2009. EPA did not fully implement the
            recommendation to maintain accurate records and properly administer interagency



12-P-0388                                                                                      18
            agreements with DCMA. In MATS, EPA stated the following in response to our
            second recommendation:

                   OAM will also take action to maintain and periodically update a
                   listing of active contracts that have GFP. We have been doing this
                   on a manual basis so far. Automating this listing should be
                   completed by March 31, 2007.

                   We now have a Contract Property Coordinator (CPC) who
                   performs a risk assessment on each contract that may potentially
                   have GFP, to determine whether the property administration
                   function should be designated to DCMA. The CPC is working with
                   DCMA to close/rescind delegations on contracts that do not have
                   property, and ensure that DCMA is delegated administration over
                   contracts that have significant GFP. These efforts will: (1) allow
                   OAM to reconcile its property records with those of DCMA, which
                   will eliminate one area of concern for the OIG and (2) provide an
                   accurate database and internal control that will help OAM
                   determine which contracts need property reviews by DCMA. This
                   will significantly help us in managing the interagency agreement
                   properly. The CPC is also working to determine the level of
                   property administration needed for contracts that have GFP, but
                   were not delegated to DCMA because of their low risk level.

                   We expect to complete the reconciliation of our records with
                   DCMA, and have an automated accurate database for use in
                   determining the contracts that need property reviews by March 31,
                   2007. Determining the level of property administration needed for
                   contracts not delegated to DCMA is an ongoing process, which we
                   will continue to perform as needed.

EPA Did Not Fully Implement Corrective Actions
            We agreed that EPA’s actions noted in MATS would adequately address the audit
            concerns, but the Agency did not implement the noted corrective actions. When
            we reviewed the status of the second recommendation, we found that EPA
            transferred the CPC position from OAM to OA FMSD in November 2009 and the
            CPC continues to maintain manual listings of active contracts. There is no
            automated listing of contracts as stated in the corrective actions. Also, the
            interagency agreement with DCMA was terminated in May 2009 with no plans to
            implement any new agreements. In FY 2010, there was no cumulative list of all
            EPA contracts with CHP, and EPA was not performing property administration
            over contracts with government property. Even though it noted the second
            recommendation as complete in MATS, EPA still needs to implement corrective
            actions.




12-P-0388                                                                               19
            OAM’s contract manager stated that maintaining accurate records and properly
            administering the interagency agreements with DCMA are ongoing functions that
            were moved to FMSD and are no longer an OAM action item. Further, the CPC
            explained that EPA terminated the DCMA interagency agreement for
            noncompliance, which included not providing detailed information on billing and
            disposing EPA property without informing EPA. The CPC also stated that no one
            is performing on-site audits. She stated that she is the only staff person and could
            not perform the audits last year because of her workload.

            In FY 2011, FMSD worked to gather a more comprehensive and accurate list of
            contractors having contracts and Agency contract property clauses to validate the
            FY 2011 annual reporting. We believe that EPA should update its corrective
            action plan.

Conclusion
            EPA continues to have inaccurate records because the CPC is the only FMSD
            staff person who tracks and records CHP. Also, there is no system that provides a
            continuous update of all EPA contracts with CHP. If EPA does not maintain
            accurate CHP records, it could inaccurately report CHP in the financial
            statements. By not performing property administration functions at contractor
            sites, contractors may not be maintaining property in accordance with the contract
            or EPA policies. As a result, property could be lost or stolen while in the
            possession of contractors. EPA should take immediate action to update and
            implement corrective actions to ensure adequate safeguards over CHP.

Recommendation
            We recommend that the Assistant Administrator for Administration and
            Resources Management:

               6.	 Revise or update the milestone dates and the corrective action plan in
                   MATS for the 2006 audit report and reference any corrective actions, and
                   submit changes to the OIG for tracking.

Agency Comments and OIG Evaluation
            EPA agreed with our recommendations and proposed acceptable corrective action
            plans to address them. Appendix A contains the full text of the Agency’s
            response.




12-P-0388                                                                                     20
                                 Status of Recommendations and
                                   Potential Monetary Benefits

                                                                                                                                 POTENTIAL MONETARY
                                                     RECOMMENDATIONS                                                              BENEFITS (in $000s)

                                                                                                                     Planned
    Rec.    Page                                                                                                    Completion   Claimed    Agreed-To
    No.      No.                          Subject                           Status1        Action Official             Date      Amount      Amount

     1       11    Quantify the universe of CHP and assign more              O        Assistant Administrator for    10/31/12
                   resources to the property administration function or                  Administration and
                   contract the function to ensure proper oversight and                Resources Management
                   management of CHP.
     2       11    Designate CHP as a significant deficiency until           O        Assistant Administrator for    4/30/12
                   adequate controls are in place to safeguard                           Administration and
                   government property.                                                Resources Management

     3       11     Develop and implement policies and procedures for        O        Assistant Administrator for    10/31/13
                    the property staff that:                                             Administration and
                      a.    Address how EPA should maintain                            Resources Management
                            documentation to support acquisition values
                            reported by contractors on annual property
                            reports.
                      b.    Require PMOs to have knowledge of CHP
                            in their accountable areas to ensure it is
                            identified properly in FAS.
                      c.    Define CHP responsibilities in locations
                            where contractors and EPA staff are
                            co-located.
                      d.    Explain the required exchange between
                            property and contract staffs to ensure EPA
                            records property accurately in the financial
                            statements.
     4       11     Train property staff and COs on current and any new      O        Assistant Administrator for    10/31/13
                    responsibilities over contracts with government                      Administration and
                    property to ensure consistent application of and                   Resources Management
                    adherence to EPA’s administration of its property
                    management program.

     5       16     Develop and implement internal controls that require     O          Chief Financial Officer      10/31/12
                    the Reporting and Analysis Staff to review the
                    funding appropriations for contracts with government
                    property prior to allocating funds for CHP in the
                    financial statements.
     6       20     Revise or update the milestone dates and the             O        Assistant Administrator for    10/31/13
                    corrective action plan in MATS for the 2006 audit                    Administration and
                    report and reference any corrective actions, and                   Resources Management
                    submit changes to the OIG for tracking.




1    O = recommendation is open with agreed-to corrective actions pending
     C = recommendation is closed with all agreed-to actions completed
     U = recommendation is unresolved with resolution efforts in progress




12-P-0388                                                                                                                                        21
                                                                                   Appendix A

                  Agency Response to Draft Report


                                         March 9, 2012

MEMORANDUM

SUBJECT:       Response to Draft Report: EPA Should Improve Controls for Managing
               Contractor-Held Property Project No. OA-FY11-0046

FROM:          Craig E. Hooks, Assistant Administrator

TO:            Melissa M. Heist, Assistant Inspector General for Audits
               Office of Inspector General

The Office of Administration and Resources Management appreciates the opportunity to review
the subject draft report. In conjunction with the Office of the Chief Financial Officer, we are
providing the attached detailed response.

OARM will continue to take significant steps to improve the contract property program. During
FY 2011, dramatic progress was made to improve our process for identifying those contracts
providing or allowing for contract property assignment. Recent technology enhancements, both
planned and implemented by OARM, are expected to further improve the quantity and quality of
information available to the agency.

Should you or your staff have questions, please contact Renee Page, director of the Office of
Administration at (202) 564-8400 or page.renee@epa.gov.


Attachment

cc:    	 anci Gelb
       N
       John Showman
       Renee Page
       John Bashista




12-P-0388                                                                                       22
      Draft Report: EPA Should Improve Controls for Managing Contractor-Held Property 

                                Project No. OA-FY11-0046 


                      Office of Administration and Resources Management 


Chapter 2: “EPA Does Not Have Effective Oversight of Contractor-Held Property”

OIG Conclusion:

By having limited controls, not performing property administration, and not tracking the universe
of CHP, the Environmental Protection Agency increases the likelihood that government property
can be lost or stolen while in the possession of contractors. The EPA should manage CHP
effectively, provide oversight, and accurately report the value of CHP on the financial
statements. At a minimum, the agency’s controls should include the proper policies and
procedures to track and document CHP that is relinquished to contractors. By not ensuring that
CHP is accounted for accurately under the correct contract, the EPA increases the risk of
misstatements to the financial statements.

OARM Response: OARM concurs with the overall conclusions and findings identified above
as they relate to its activities and actions. Our specific responses to the OIG’s recommendations
are below:

Recommendations:

The OIG recommends that the Assistant Administrator for Administration and Resources
Management:

   1.	 Quantify the universe of contractor- held property and assign more resources to the
       property administration function or contract the function to ensure proper oversight and
       management of CHP.

       OARM Response: OARM concurs with this recommendation and will take the
       following corrective actions:

            	 Reevaluate the location of the contract property function within OARM to ensure
               that appropriate emphasis and resources are assigned to this area. Completion
               date: June 2012.

            	 Improve OARM’s ability to track contract property assets by implementing a new
               property tracking system which will also enhance the tracking of contract
               property within the EPA Acquisition System (EAS). Completion date: October
               2012.

               In the short term, OAM has implemented processes to account for property and
               property clauses within contracts. The EAS was built to include a checkbox field
               to report Government Furnished Property. Federal Procurement Data Systems –



12-P-0388                                                                                         23
               Next Generation also has a checkbox field, separate from and not fed by the EAS
               field, for reporting GFP. The EPA is using these systems to track two data points
               in the property management process – EAS tracks whether a contract contains the
               GFP clause, while FPDS tracks which contracts actually have government
               property assigned. These two reports should simplify the property tracking
               process and provide a comprehensive listing of contracts with GFP. Additionally,
               the Contract Property Coordinator has been provided EAS access for easier
               transmission of contract information. OAM has also created a data quality
               position that will monitor and assess the EPA’s reporting information, including
               reconciling government property data. Completed: FY2011 Q1.

            	 Additionally, in order to quickly respond to this issue OAM introduced guidance
               that requires a quarterly assessment and certification to the OAM Director by the
               operating division directors and regional acquisition managers. The assessment
               and certification assures the OAM Director that each office has: 1) reviewed
               reported GFP information for accuracy and completeness; 2) made any necessary
               corrections to the data, and 3) validated that all necessary information has been
               provided to the CPC. Completion date: Initiated FY2011 Q3.

            	 OAM has implemented a Balanced Scorecard Performance Measurement and
               Management Program where CHP administration will be highlighted under
               additional narratives beyond the quarterly assessment and management
               certification. This includes a self-assessment review on CHP and adding CHP as
               an area of increased review under the self-assessment and peer review
               components of the Quality Assurance Program. OAM is developing required
               performance goals against which procurement quality may be measured and
               tracked. It is intended that this initiative will aid in the development of approaches
               to create process improvements and training as needed, based upon Quality
               Assurance Program review results. Completion date: Initiated FY2011.

   2.	 Designate CHP as a significant deficiency until adequate controls are in place to
       safeguard government property.

      OARM Response: OARM concurs with this recommendation and will make the
      requested designation. Completion date: Upon the release of the OIG Final Report
      (estimated to be March/April 2012).

   3.	 Develop and implement policies and procedures for the property staff that:

      a.	 Address how the EPA should maintain documentation to support acquisition values
          reported by contractors on annual property reports.

               OARM Response: OARM concurs with this recommendation and proposes the
               following corrective actions:




12-P-0388                                                                                         24
             	 OARM will reinstitute its program of audits of the accountable areas to
                monitor compliance with property requirements for data entry and document
                maintenance. OARM will conduct at least six field audits each year to
                evaluate and provide guidance to the property personnel in accountable areas.
                Completion date: Initiated FY2012 Q3. This action could be impacted by
                future constraints on travel and staffing.

             	 OARM will conduct monthly teleconferences with field property staff during
                which their interaction with the contract property program will be discussed
                and emphasis placed on accurate and timely data entry and document
                maintenance. Teleconference’s are held on the third Thursday of every
                month.
                Completion date: Initiated FY 2012 Q4.

             	 The personal property guidelines and manual will be modified to enhance the
                information and emphasis on those actions where the personal property staff
                interact with the contract property program. Completion date: October 2012.

      b.	 Require Program Management Officers to have knowledge of CHP in their
          accountable areas to ensure it is identified properly in FAS.

             OARM Response: OARM concurs with this recommendation and will take the
             following corrective actions:

             	 OARM will conduct monthly teleconferences with field property staff during
                which their interaction with the contract property program will be discussed
                and emphasis placed on accurate and timely data entry and document
                maintenance. Teleconferences are held on the third Thursday of every month.
                Completion date: October 2012.

             	 The personal property guidelines and manual will be modified to enhance the
                information and emphasis on those actions where the personal property staff
                interacts with the contract property program. Completion date: October 2012.

             	 OARM will clarify the procedures to be followed by PMOs, PAOs, and PUOs
                and ensure awareness of all processes for acquiring, decaling, tracking, and
                disposing of contractor property and how to work closely with contracting
                officers to support the contract management program operations. Completion
                date: October 2012.

      c.	 Define CHP responsibilities in locations where contractors and the EPA staff are co-
          located.

             OARM Response: OARM concurs with this recommendation and will take the
             following corrective actions:



12-P-0388                                                                                    25
             	 While these activities and responsibilities are already generally defined, (75 %
                use standard), guidance is difficult to implement and additional structure and
                training is needed to ensure compliance. Absent any new clause from the FAR
                or EPAAR, OARM will investigate the possibility of making procedural
                changes to internal guidance to clarify and standardize the decision-making
                process. Completion date: June 2012.

             	 OARM will initiate training for COs and POs to improve knowledge.
                Completion date: Initiated in October 2011.

      d.	 Explain the required exchange between property and contract staffs to ensure the
          agency records property accurately in the financial statements.

             OARM Response: OARM concurs with this recommendation and will take the
             corrective actions outlined in sub-paragraph 3b above.

             	 In addition to the property guidelines and manual being modified, OAM and
                the CPC are working to jointly update the Contracts Management Manual to
                include any new or revised property policy and procedures to be followed by
                the acquisition community. The EPAAR will also be reviewed for potential
                updating. While EPAAR 1552.245-70 does require the contractor to conform
                to the requirements in FAR 52.245-1, the only reporting requirement is for the
                annual summary report which does not contain enough information to result in
                meaningful Agency reporting. A complete update of EPA acquisition policy is
                a part of the OAM Balanced Scorecard Performance Measurement and
                Management Program. Completion date: September 2013.

             	 New training specific to the acquisition community will also be provided once
                the policy/procedures have been updated. This will be mandatory training for
                COs and will include information on the detailed property record that is
                required to be included on a contract. Completion date: October 2013.

             	 OAM has implemented a Balanced Scorecard Performance Measurement and
                Management Program where CHP administration will be highlighted under
                additional narratives beyond the quarterly assessment and management
                certification. This includes a self-assessment review on CHP and adding CHP
                as an area of increased review under the self-assessment and peer review
                components of the QAP. OAM is developing required performance goals
                against which procurement quality may be measured and tracked. It is
                intended that this initiative will aid in the development of approaches to create
                process improvements, and training as needed, based upon QAP review
                results. Completion date: Initiated FY2011.




12-P-0388                                                                                     26
   4.	 Train property staff and COs on current and any new responsibilities over contracts with
       government property to ensure consistent application of and adherence to the EPA’s
       administration of its property management program.

       OARM Response: OARM concurs with this recommendation and will take the
       corrective actions outlined in sub-paragraph 3b above.

               	 The Office of Administration Contract Property Coordinator conducted
                  training at the OAM acquisition conference in March 2011. The training
                  provided updated information and guidance on contract property issues. As
                  part of an on-going review and improvement program, OAM and OA have
                  continued to provide periodic training sessions for COs about the importance
                  of ensuring that all contracts containing contract property clauses are
                  identified as such in the EAS. The most recent training session occurred in
                  January 2012. The coordinator has been requested to present several
                  additional webinar/mini-training sessions to OAM personnel over the next
                  fiscal year. Completion date: October 2012.

               	 New training specific to the acquisition community will also be provided once
                  the policy/procedures have been updated. This will be mandatory training for
                  COs. Completion date: October 2013.

Chapter 3: “EPA Did Not Accurately Report CHP in the Financial Statements with government
property prior to allocating funds for CHP in the financial statements.”

OIG Conclusion:

EPA’s FY 2010 total overstatement is $34.6 million. The overstatement includes $17.8 million
due to recording incorrect amounts from contractor annual reports and recording duplicate
property items. It also included $16.8 million due to not removing WCF funding from one
contract. EPA should develop controls to ensure that the financial staff reviews contract funding
prior to reporting CHP on the financial statements. EPA increases the risk that a material
misstatement may occur and go undetected when Agency personnel and contractors do not
comply with internal policies already in place.

EPA management has placed more emphasis on CHP in fiscal year 2011. EPA addressed the
accuracy of CHP in its financial reporting and the recording of the $25 million contract. We
believe EPA should continue its emphasis on accurately reporting CHP in the financial system.

OCFO Response: OCFO concurs with the overall conclusions and findings in this chapter as
they relate to our activities and actions, and we plan to take the corrective actions identified
below:




12-P-0388                                                                                          27
Recommendations:

We recommend that the Chief Financial Officer:

   5.	 Develop and implement internal controls that require the Reporting and Analysis Staff to
       review the funding appropriations for contracts with government property prior to
       allocating funds for CHP in the financial statements.

       OCFO Corrective Actions: OCFO will develop and implement internal controls that
       require the Reporting and Analysis Staff to review the use of funds to ensure obligations
       support contractor-held property balances reported in the financial statements.
       Completion date: October 2012.

Chapter 4: “EPA Did Not Adequately Address Prior Recommendations on CHP”

OIG Conclusion:

EPA continues to have inaccurate records because the CPC is the only FMSD staff person who
tracks and records CHP. Also, there is no system that provides a continuous update of all EPA
contracts with CHP. If EPA does not maintain accurate CHP records, it could inaccurately report
CHP in the financial statements. By not performing property administration functions at
contractor sites, contractors may not be maintaining property in accordance with the contract or
EPA policies. As a result, property could be lost or stolen while in the possession of contractors.
EPA should take immediate action to update and implement corrective actions to ensure
adequate safeguards over CHP.

OARM Response: OARM concurs with the overall conclusions and findings identified above as
they relate to OARM activities and actions.

Recommendation:

OIG recommends that the Assistant Administrator for Administration and Resources
Management:

   6.	 Revise or update the milestone dates and the corrective action plan in MATS for the 2006
       audit report and reference any corrective actions, and submit changes to the inspector
       general’s office for tracking.

       OARM Response: OARM concurs with this recommendation and will take the
       following corrective actions:

            	 Revisions to the MATS database will update the corrective actions from the 2006
               audit. Completion date: May 2012.
                  o	 2006 Corrective action: Update the policy and procedures regarding GFP
                       management. OAM did update both the Contracts Management Manual
                       (February 2009) and the EPAAR (September 2009) in response to the


12-P-0388                                                                                        28
                      2006 audit. However, a new revision regarding GFP has already been
                      initiated in OAM. Completion date: September 2013.
                   o	 2006 Corrective action: Maintain accurate records and properly administer
                      interagency agreements with DCMA. The interagency agreement with
                      DCMA was found to be too expensive and EPA was not receiving the
                      services that had been agreed upon. This agreement was terminated in
                      May 2009 so this corrective action should be deleted.
                   o	 2006 Corrective action: Automated listing of contracts. EAS was built to
                      include a checkbox field to report GFP. Federal Procurement Data
                      Systems – Next Generation also has checkbox field, separate from and not
                      fed by the EAS field, for reporting GFP. The EPA is using these systems
                      to track two data points in the property management process – EAS tracks
                      whether a contract contains the GFP clause, while FPDS tracks which
                      contracts actually have government property assigned. Both of these
                      systems can be used by the CPC to retrieve reports on contracts with
                      property. Completed: FY2011 Q1.

            	 To augment the corrective actions from 2006, OAM has also developed guidance
               requiring a quarterly assessment and certification to the OAM Director by the
               Operating Division Directors and Regional Acquisition Managers. The
               assessment and certification assures the OAM Director that each office has: 1)
               reviewed reported GFP information for accuracy and completeness, 2) made any
               necessary corrections to the data, and 3) validates that all necessary information
               has been provided to the Contract Property Coordinator. This will provide a
               check to the information that the coordinator has access to in EAS and Federal
               Procurement Data Systems – Next Generation. Completion date: Initiated
               FY2011 Q3.

            	 The Contracts Management Manual is being updated to include any new or
               revised property policy and procedures to be followed by the acquisition
               community. The EPAAR will also be reviewed for potential updating. While
               EPAAR 1552.245-70 does require the contractor to conform to the requirements
               in FAR 52.245-1, the only reporting requirement is for the annual summary report
               which does not contain enough information to result in meaningful agency
               reporting. A complete update of EPA acquisition policy is a part of the OAM
               Balanced Scorecard Performance Measurement and Management Program.
               Completion date: September 2013.


            	 As OAM continues to follow the Balanced Scorecard Performance Measurement
               and Management Program, one of the goals identified was to assess the QAP
               program for improvement opportunities. A Contract Management Assessment
               Team has been established to review products from the OAM operations divisions
               to ensure consistency among existing quality oversight and review programs.
               OAM is developing required performance goals against which procurement
               quality may be measured and tracked. This initiative will aid in the development
               of approaches to create process improvements and training as needed, based upon


12-P-0388                                                                                      29
            QAP review results. Improving the management and oversight of GFP will be an
            FY2012 program goal. Completion date: Initiated FY 2011. Additionally,
            mandatory training for COs and additional training for CORs on what information
            is required to be provided when adding property to a contract is anticipated to
            significantly improve the agency’s property management process. As part of the
            training, best practices and/or standard operating procedures for documenting
            property on contracts will be included to standardize reporting property and make
            CHP information more accessible to the Contract Property Coordinator.
            Completion date: October 2013.




12-P-0388                                                                                 30
                                                                                 Appendix B

                                     Distribution
Office of the Administrator
Assistant Administrator for Administration and Resources Management
Agency Follow-Up Official (the CFO)
Agency Follow-Up Coordinator
General Counsel
Associate Administrator for Congressional and Intergovernmental Relations
Associate Administrator for External Affairs and Environmental Education
Director, Office of Acquisition Management, Office of Administration and
       Resources Management
Director, Facilities Management and Services Division, Office of Administration and
       Resources Management
Audit Follow-Up Coordinator, Office of Administration and Resources Management
Audit Follow-Up Coordinator, Office of the Chief Financial Officer




12-P-0388                                                                                31
